February 14, 2011

LINDA WELCH
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Columbus, GA Customer Service Mail Processing Center
        Originating Mail Consolidation (Report Number NO-AR-11-005)

This report presents the results of our audit of the consolidation of the Columbus, GA
Customer Service Mail Processing Center (CSMPC) originating1 mail operation
into the Macon, GA Processing and Distribution Center (P&DC) (Project
Number 11XG014NO000). The report responds to a congressional request. Our audit
objectives were to assess originating mail operational impacts of the consolidation from
the Columbus CSMPC to the Macon P&DC and to assess compliance with established
area mail processing (AMP) guidelines. This audit addresses operational risk. See
Appendix A for additional information about this audit.




Source: U.S. Postal Service Office of Inspector General (OIG).
Illustration 1: The Columbus CSMPC.



1
 Originating mail is outgoing mail and local mail that enter the mailstream (that is, the point of origin) for mail
processing and delivery.
Columbus, GA Customer Service Mail Processing Center                        NO-AR-11-005
 Originating Mail Consolidation


The consolidation of the Columbus CSMPC originating mail into the Macon P&DC was
finalized on July 1, 2010. The consolidation involved Columbus’ zones 318 and 319
originating mail. The Columbus CSMPC will continue to process its destinating mail.

Conclusion

A favorable business case existed to support consolidating the Columbus CSMPC’s
originating mail operation into the Macon P&DC. The consolidation resulted in minimal
operational impacts. Additionally, the U.S. Postal Service followed established AMP
policies and guidelines for the consolidation. Our analysis showed:

     Adequate capacity existed at the Macon P&DC to process Columbus CSMPC’s
      originating mail volume.

     Customer service scores have been maintained.

     Limited numbers of employees were impacted.

     Efficiency improved.

     Prior consolidation of the Columbus CSMPC’s Saturday outgoing mail into the
      Macon P&DC produced favorable results.

See Appendix B for our detailed analysis of this topic.

Because our findings support the consolidation, we are not making any
recommendations. Management agreed with the report but chose not to comment
because there were no recommendations.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director
Network Processing, or me at 703-248-2100.

        E-Signed by Robert Batta
    VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Megan J. Brennan
    David E. Williams Jr.
    Frank Neri
    Corporate Audit and Response Management


                                                 2
Columbus, GA Customer Service Mail Processing Center                                           NO-AR-11-005
 Originating Mail Consolidation


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service’s financial condition continued to decline in fiscal year (FY) 2010
and its financial outlook is poor for FY 2011 and the foreseeable future. Key results for
FY 2010 included total revenue of $67.1 billion and total expenses of $75.6 billion.
This resulted in (1) a record loss of $8.5 billion--up $4.7 billion from FY 2009; (2) a
$1.8 billion increase in outstanding debt to the U.S. Department of Treasury (Treasury),
thus making the total outstanding debt $12 billion; and (3) a $1.2 billion cash balance at
the end of the fiscal year.

The Postal Service has released its budget for FY 2011, projecting a $6.4 billion loss -
one of the largest in Postal Service history. This includes the impact of a $5.5 billion
payment due in 2011 to prefund retiree health benefits; a $3 billion increase in
outstanding debt due to the Treasury; and a $2.7 billion cash shortfall at the end of the
fiscal year.

The Postal Service’s revenue drop in FY 2010 was driven by continuing declines in total
mail volume. In FY 2010, mail volume decreased about 6 billion pieces from the
previous fiscal year to 171 billion pieces. This volume was about 20 percent below the
peak of 213 billion pieces delivered during FY 2006. Most of the volume declines were
in profitable First-Class Mail® (FCM) category.

The Postal Service projects net mail volume to increase by about 2 billion pieces in
FY 2011. In this fiscal year, FCM is expected to decrease by 3 billion pieces; however,
Standard Mail® is expected to increase by 5 billion pieces.

In testimony before Congress,2 the U.S. Government Accountability Office (GAO)
recommended urgent action was needed to streamline the mail processing and retail
networks, as the Postal Service no longer has sufficient revenue to cover the cost of
maintaining its large network of processing and retail facilities. Furthermore, the GAO
stated that the Postal Service must consider whether it was cost-effective to retain
underutilized facilities and to take action to right size its network.

In addition, in December 2010,3 GAO recommended the Postal Service become much
leaner and more flexible by modernizing and restructuring to become more efficient,
control costs, keep rates affordable, and meet changing customer needs.

Title 39, U.S.C. Part 1, Chapter 1 § 101, states that the Postal Service “. . . shall provide
prompt, reliable, and efficient services to patrons in all areas . . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states “The Postal
2
  GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.
3
  GAO-11-244T, Testimony before the Subcommittee on Federal Financial Management, Government Information,
Federal Services, and International Security, Committee on Homeland Security and Governmental Affairs, U.S.
Senate, dated December 2, 2010.


                                                      3
Columbus, GA Customer Service Mail Processing Center                             NO-AR-11-005
 Originating Mail Consolidation


Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act, P.L.109-435-December 20,
2006, Title II, highlights “. . . the need for the Postal Service to increase its efficiency
and reduce its costs, including infrastructure costs, to help maintain high quality,
affordable postal services. . . .”

This audit report responds to a request from a congressional representative to
independently review the consolidation of originating mail processing operations from
the Columbus CSMPC into the Macon P&DC. The representative’s concerns include
the following, which we addressed in the report:

   Were AMP guidelines followed?

   Did a business case exist for consolidating the Columbus CSMPC originating mail
    processing to the Macon P&DC?

   Will the AMP yield substantial savings?

   Have service levels been maintained?

   Were transportation savings properly identified?

   Was the number of supervisors decreased relative to the decrease in the number of
    craft employees?

   Has the increase in mail from the Fort Benning Army Base been taken into account?

   Is the Columbus postmark still available and have customers been notified?

   Has retail customer service been maintained at the Columbus CSMPC?

The consolidation involved Columbus CSMPC zones 318 and 319 originating mail
processing moving to the Macon P&DC. The Columbus CSMPC continued to process
its destinating mail. Approximately 38 million originating mailpieces per year will transfer
to the Macon P&DC for processing.

The Columbus CSMPC and the Macon P&DC are in the South Georgia District in the
Southwest Area - see Map, “Districts within the Postal Service Southwest Area.”




                                                 4
Columbus, GA Customer Service Mail Processing Center                        NO-AR-11-005
 Originating Mail Consolidation


                Map: Districts within the Postal Service Southwest Area




OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to assess originating mail operational impacts of the
consolidation from the Columbus CSMPC to the Macon P&DC and to assess
compliance with established AMP guidelines. We reviewed current and historical data
for the Columbus CSMPC and the Macon P&DC. We evaluated efficiencies at both
plants as well as capacity at the Macon P&DC. We estimated the costs and savings
from this analysis. Additionally, we conducted observations at both sites during
December 2010 and interviewed Postal Service management and employees, and Fort
Benning Army Base military officials.

We used computer processed data from the following systems:

   Enterprise Data Warehouse.
   Activity Based Costing System.
   Web End of Run Application.

We conducted this performance audit from December 2010 through February 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our



                                                 5
Columbus, GA Customer Service Mail Processing Center                                  NO-AR-11-005
 Originating Mail Consolidation


observations and conclusions with management on January 21, 2011, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.

PRIOR AUDIT COVERAGE

                                            Final Report
     Report Title        Report Number          Date                        Report Results
Area Mail Processing     EN-AR-09-001         2/4/2009     The Postal Service improved communication
Communication                                              and management has generally addressed
                                                           prior audit recommendations. We
                                                           recommended several methods of further
                                                           increasing stakeholder notification, including
                                                           exploring electronic methods. Management
                                                           agreed with our recommendation to add
                                                           employee input notifications but disagreed with
                                                           our recommendation to explore additional
                                                           communication channels.
Canton Processing         NO-AR-09-011        9/22/2009    It was a prudent decision to consolidate the
and Distribution                                           Canton P&DF’s outgoing mail processing
Facility Outgoing Mail                                     operation into the Akron P&DC. We made no
Processing Operation                                       recommendations.
Consolidation
New Castle                NO-AR-10-002         2/1/2010    It was a prudent decision to consolidate the
Processing and                                             New Castle P&DF outgoing mail
Distribution Facility                                      processing operations into the Pittsburgh
Outgoing Mail                                              P&DC. The Postal Service could save more
Processing Operation                                       than $1.8 million annually. We made no
Consolidation                                              recommendations.
Manasota Processing       EN-AR-10-003        2/12/2010    We concluded there was a business case for
and Distribution                                           consolidating mail processing operations from
Center Consolidation                                       the Manasota P&DC to the Tampa P&DC. The
                                                           consolidation should increase efficiency,
                                                           reduce processing costs, and improve service.
                                                           We recommended the vice president, Network
                                                           Operations, ensure the implementation of
                                                           activities of P&DC consolidation begin
                                                           immediately after AMP proposal approval and
                                                           require headquarters' approval when
                                                           implementation is delayed more that 3 months.
                                                           We also recommended the vice president
                                                           enable the automatic feed into the Web
                                                           Management Operation Data System for
                                                           Express Mail® scanning operations.
                                                           Management agreed with our
                                                           recommendations.




                                                 6
Columbus, GA Customer Service Mail Processing Center                                    NO-AR-11-005
 Originating Mail Consolidation



                                            Final Report
     Report Title        Report Number          Date                        Report Results
Lakeland Processing      EN-AR-10-004        2/12/2010     There was a valid business case for the
and Distribution                                           consolidation. It will increase efficiency, reduce
Center Consolidation                                       processing costs, and improve service. We
                                                           made no recommendations.
Dallas Processing and     NO-AR-10-003        2/24/2010    A business case existed to support the
Distribution Center                                        consolidation. There was capacity, the
Outgoing Mail                                              potential to improve customer service and
Consolidation                                              efficiency, impact a limited number of
                                                           employees, and the Postal Service could save
                                                           $114 million over a 10-year period.
                                                           Management agreed with the
                                                           recommendations.
Consolidation of the      NO-AR-10-007         7/2/2010    A business case existed to support
Lima P&DF Mail                                             consolidating the Lima P&DF’s mail
Operations Into the                                        operations into the Toledo P&DC. As a
Toledo P&DC                                                result of this consolidation, the Postal Service
                                                           will save $1.8 million during the first year and
                                                           $2.3 million during subsequent years.
                                                           Management agreed with the
                                                           recommendations.
Charlottesville           NO-AR-10-008         8/3/2010    There was a valid business case for the
Processing and                                             consolidation. There was capacity, the
Distribution Facility                                      potential to improve customer service and
Consolidation                                              efficiency. No employee will lose their job, and
                                                           the Postal Service could save $6.5 million
                                                           annually. We made no recommendations.
Wilkes-Barre, PA          NO-AR-11-001        10/4/2010    There was a valid business case for
Processing and                                             consolidating mail processing operations. Both
Distribution Facility                                      Scranton P&DF and Lehigh Valley P&DC had
Consolidation                                              the capacity to process Wilkes-Barre P&DF
                                                           volume. However, Postal Service overstated
                                                           savings by more than $929,000, because the
                                                           summary page for AMP projections was not
                                                           protected from manual changes. We made no
                                                           recommendation, because Postal Service took
                                                           action during the audit by implementing a new
                                                           procedure to password-protect this type of data
                                                           in the future.
Marysville, CA            NO-AR-11-002       11/23/2010    A valid business case existed for consolidating
Processing and                                             mail processing operations from the Marysville
Distribution Facility                                      P&DF into the Sacramento P&DC.
Consolidation                                              Additionally, the Postal Service followed
                                                           established AMP policies and guidelines. We
                                                           made no recommendations.




                                                 7
Columbus, GA Customer Service Mail Processing Center                                   NO-AR-11-005
 Originating Mail Consolidation



                                            Final Report
    Report Title         Report Number          Date                        Report Results
Houston Processing       NO-AR-11-004        12/14/2010    A business case exists to consolidate the
and Distribution                                           Houston P&DC’s mail processing operations
Center Consolidation                                       into the North Houston P&DC. As a result of
                                                           this consolidation, the Postal Service could
                                                           save more than $35 million annually for a total
                                                           economic impact of more than $189,744,682
                                                           million over a 10-year period. Management
                                                           agreed with the recommendations and will
                                                           pursue the expansion of the North Houston
                                                           P&DC and consolidate the Houston P&DC’s
                                                           mail processing operation.




                                                 8
Columbus, GA Customer Service Mail Processing Center                                             NO-AR-11-005
 Originating Mail Consolidation


                               APPENDIX B: DETAILED ANALYSIS

Capacity

Adequate capacity existed at the Macon P&DC to process the mail volume received
from the Columbus CSMPC. Sufficient workroom and facility space also existed at the
Macon P&DC and Annex. For example:

   The Macon P&DC is more than twice the size of the Columbus CSMPC4 and has the
    capacity to process mail from the Columbus CSMPC. See Illustrations 2 and 3.

   The Macon P&DC has a large number of dock doors.5 Additional dock doors allow
    for efficient loading and unloading of mail trucks by minimizing wait time in the dock
    area. See Illustration 4.




             Source: OIG
             Illustration 2: Low mail volume from Columbus CSMPC in opening unit at
             the Macon P&DC. Photograph taken December 14, 2010.6




4
  The Macon P&DC has 130,289 square feet of space, and the annex has an additional 33,979 square feet of space.
The Columbus CSMPC has 80,216 square feet of space.
5
  The Macon P&DC has 27 dock doors vs. only seven dock doors at the Columbus CSMPC.
6
  Photograph taken during one of the busiest months of the year.


                                                       9
Columbus, GA Customer Service Mail Processing Center                                  NO-AR-11-005
 Originating Mail Consolidation




            Source: OIG
            Illustration 3: Low mail volume arriving from Columbus CSMPC to be worked at the
            Macon P&DC. Photograph taken December 14, 2010.7




           Source: OIG
           Illustration 4: Macon P&DC has 27 dock doors. Additional dock doors allow for more
           efficient dock operations and reduce congestion. Photograph taken
           December 15, 2010.



7
    Photograph taken during one of the busiest months of the year.


                                                          10
Columbus, GA Customer Service Mail Processing Center                                                NO-AR-11-005
 Originating Mail Consolidation


Only the originating mail volume was transferred from the Columbus CSMPC to the
Macon P&DC. This volume totals approximately 38 million first-handling pieces8 (FHP)
or about 24 percent of the Columbus CSMPC’s FY 20099 volume. The Columbus
CSMPC will continue to process all its remaining mail, which constitutes 76 percent of
its FY 2009 mail volume.

The mail transferred from the Columbus CSMPC represents an 8 percent increase in
FY 2009 volume for the Macon P&DC. However, because the Macon P&DC
experienced an approximately 8 percent volume decline between FYs 2008 and 2009
(or 38 million FHPs), the net effect is no change in volume, which means the originating
mail being transferred can be easily absorbed.

Delayed Mail

Delayed mail as a percentage of mail processed has remained consistently low at the
Macon P&DC. Before the consolidation, from July 1 to November 30, 2009, the Macon
P&DC’s delayed mail was 1.83 percent of FHP. After the consolidation, from July 1 to
November 30, 2010, delayed mail increased to 2.57 percent of FHP.

Customer Service

Customer service has been maintained. The Macon P&DC generally had higher
External First-Class Measurement (EXFC) scores when compared to the Columbus
CSMPC and the national scores. This indicates that the Macon P&DC has good
management processes in place to address customer service. For example:

   Before the consolidation, the Macon P&DC’s overnight originating EXFC
    score was 96.44 compared with Columbus’ score of 94.79 and the national score of
    96.12. After the consolidation, Macon’s score of 96.33 was still higher than
    Columbus’ score of 94.14 and slightly below the national score of 96.38. See
    Table 1.

   Before the consolidation, the Macon P&DC’s 2-day originating EXFC score was
    94.89 compared with Columbus’ score of 91.79 and the national score of 93.68.
    After the consolidation, Macon’s score of 94.61 was higher than Columbus’ score of
    94.27 and the national score of 93.76. See Table 2.

   Before the consolidation, the Macon P&DC’s 3-day originating EXFC score was
    91.67 compared with Columbus’ score of 91.24 and the national score of 91.44.
    After the consolidation, Macon’s score of 95.93 was higher than Columbus’ score of
    94.62 and the national score of 91.51. See Table 2.

                          Table 1. Overnight Originating EXFC Scores

8
 FHP is a letter, flat, or parcel that receives its initial distribution in a Postal Service facility.
9
 The OIG is using FY 2009 in calculations and comparisons throughout the report to mirror the period used by the
Postal Service in the AMP study.


                                                        11
Columbus, GA Customer Service Mail Processing Center                                                  NO-AR-11-005
 Originating Mail Consolidation




                                                               Overnight
                                            Columbus
                                                              Macon P&DC            National
                                             CSMPC
                    Before
                    Consolidation
                                                    94.79               96.44              96.12
                    Q4 2009 and
                    Q1 2010

                    After the
                    Consolidation
                                                    94.14               96.33              96.38
                    Q4 2010 and
                    Q1 201110


                              Table 2. 2 and 3-Day Originating EXFC Scores

                          2-Day                                                        3-Day
                      Columbus        Macon                                        Columbus        Macon
                                                 National                                                     National
                       CSMPC          P&DC                                          CSMPC          P&DC
 Before                                                       Before
 Consolidation                                                Consolidation
                            91.79       94.89        93.68                               91.24       91.67        91.44
 Q4 2009 and                                                  Q4 2009 and
 Q1 2010                                                      Q1 2010
 After                                                        After
 Consolidation                                                Consolidation
                            94.27       94.61        93.76                               94.62       95.93        91.51
 Q4 2010 and                                                  Q4 2010 and
 Q1 2011                                                      Q1 2011

The number of net service delivery standards11 improved or remained the same for all
categories of mail, which effectively increased service. Thirty-six upgrades and
18 downgrades occurred between the two facilities, resulting in an overall net impact of
18 upgrades. In addition, with regard to the Postal Service’s premier services (Priority
Mail® and FCM), six upgrades occurred for each service with no downgrades. See
Table 3.




10
   Data extracted on January 5, 2011.
11
   Service Standards is defined as "A stated goal for service achievement for each mail class.” Service Standards
represent the level of service that the Postal Service strives to provide to customers and are considered one of the
primary operational goals against which service performance is measured. The Service Standards by mail class are
as follows: Priority Mail: 1-3 days, FCM: 1-3 days, Periodicals: 1-9 days, Package Services: 2-8 days, and Standard
Mail: 3-10 days. An upgrade or downgrade means that service between two ZIP Codes is 1 day or more faster or
slower than it was before a change.


                                                         12
Columbus, GA Customer Service Mail Processing Center                               NO-AR-11-005
 Originating Mail Consolidation


         Table 3. Upgrades/Downgrades in Service Standards by Mail Class

              3-Digit ZIP Code Pair
                Service Standard          Upgrades          Downgrades    Net Change
                     Impacts
                  First-Class Mail                      6            0             6

                    Priority Mail                       6            0             6

                 Package Service                        4           (4)            0

                    Periodicals                        10          (10)            0

                   Standard Mail                       10           (4)            6

                    All Classes                        36          (18)           18


Additionally, no changes occurred to the local mailbox collection times, retail window, or
business mail entry operations as a result of the consolidation. Further, the Columbus
postmark remains available upon request; and, following our visit, a sign was posted at
the Columbus CSMPC to inform customers of its availability. Postal Service officials
also indicated that signs will be placed in all delivery units in the Columbus area. See
Illustration 5 for the Columbus postmark and Illustration 6 for the sign posted at the
Columbus CSMPC.




      Source: OIG.
      Illustration 5: Columbus, GA Postmark. Photograph taken December 14, 2010.




                                                13
Columbus, GA Customer Service Mail Processing Center                                                NO-AR-11-005
 Originating Mail Consolidation




         Source: OIG.
         Illustration 6: Sign advising Columbus CSMPC’s customers of the postmark availability.
         Photograph taken December 14, 2010.

Employee Impact

The consolidation of the Columbus CSMPC’s originating mail into the Macon P&DC had
a limited impact on employees. Specifically:

    No career employees lost their jobs at either location.

    The consolidation impacted 1512 craft employees as follows. We found:

        Seven employees (five voluntarily and two involuntarily) were reassigned to full-
         time craft positions and three employees were voluntarily converted to part-time
         positions within the Columbus CSMPC.

        Four employees voluntarily retired.

        One employee was involuntarily reassigned to Atlanta Network and Distribution
         Center.13

Because of the reduction in employees that resulted from the consolidation, the
Columbus CSMPC planned on excessing two management positions. However,
because of the freeze on hiring, Columbus CSMPC has postponed this action.

12
   Columbus CSMPC has 112 craft employees before the consolidation.
13
   This employee was reassigned to the Atlanta Network Distribution Center, because the mail handler position open
at the Macon P&DC was a higher level position and the employee could not latterly transfer to that position.


                                                        14
Columbus, GA Customer Service Mail Processing Center                                               NO-AR-11-005
 Originating Mail Consolidation


Reducing the number of management positions by one will increase the current craft to
management ratio of 18:1 to the required 25:1.

Efficiency

Efficiency improved as a result of the consolidation. The Macon P&DC is more efficient
and processes its mail volumes at a lower cost than the Columbus CSMPC. For
example:

    In FY 2010, the Macon P&DC’s FHP productivity14 was 1,236 pieces per workhour
     as compared with the Columbus CSMPC’s FHP productivity of 1,066 pieces per
     workhour. This indicates that the Macon P&DC processes 16 percent more
     mailpieces per hour than the Columbus CSMPC. See Charts 1 and 2.

    When comparing July 1 through November 30, 2010, to the same period last year,
     the Macon P&DC’s FHP productivity increased more than 20 percent, whereas the
     Columbus CSMPC’s decreased by 1 percent. See Table 4.

    In FY 2010, processing costs at the Macon P&DC and the Columbus CSMPC were
     the same. It costs $75.17 to process 1,000 FHP mailpieces at both facilities.
     However, since the consolidation, cost per 1,000 FHP mailpieces increased at
     Columbus CSMPC while decreasing at Macon P&DC15. See Chart 3.




14
  FHP divided by workhours is FHP productivity. This number is useful when evaluating the overall productivity.
15
  The cost increase at the Columbus facility resulted from the mail volume loss and should improve once workhours
are reduced accordingly.


                                                       15
Columbus, GA Customer Service Mail Processing Center                                       NO-AR-11-005
 Originating Mail Consolidation


                              Chart 1. Group 4 Plants First Handling Pieces
                                         Productivity FY 2010 16




                             Chart 2. Group 6 Plants First Handling Piece
                                         Productivity FY 2010




16
     P&DF stands for Processing and Distribution Facility and PO stands for Post Office.


                                                           16
Columbus, GA Customer Service Mail Processing Center                                  NO-AR-11-005
 Originating Mail Consolidation




                                 Table 4. FHP Productivity
                               Before and After Consolidation

                                                                    Percentage
                          7/1/09 to 11/30/09 7/1/10 to 11/30/10
                                                                   Change in FHP
                          FHP Productivity FHP Productivity
                                                                    Productivity
    Columbus CSMPC                   1,036.67          1,025.42             -1.09%
      Macon P&DC                     1,098.14          1,323.88                    20.56%

                         Chart 3. FY 2010 Trend Processing Cost
                            Cost per 1,000 mailpieces (FHP)




                                                              Consolidation effective July 1,




In addition, from July 1 through November 30, 2010, the Columbus CSMPC has
reduced its workhours by 9,008, and the Macon P&DC has reduced its workhours by
8,672. These workhour savings represent 88 percent of the 20,089 workhour saving
projected in the AMP study. The Postal Service is on target for meeting its workhour
savings projection.

Saturday Effect

In 2005, originating Saturday mail volume was transferred from the Columbus CSMPC
to the Macon P&DC with favorable results. Specifically:

   In FYs 2009 and 2010, the Macon P&DC’s Saturday FHP productivity of 1,316 was
    15 percent higher than the average for the rest of the weekdays and 8 percent
    higher than Friday’s productivity. See Chart 4.


                                                17
Columbus, GA Customer Service Mail Processing Center                       NO-AR-11-005
 Originating Mail Consolidation




   In FYs 2009 and 2010, the Columbus CSMPC’s Saturday FHP productivity of 1,188
    was 12 percent higher than the average for the rest of the weekdays and 7 percent
    higher than Friday’s productivity. See Chart 5.

   In FY 2010, the Macon P&DC’s Saturday overnight, 2-day, and 3-day EXFC service
    scores were comparable to those for the rest of the weekdays. See Chart 6.

                     Chart 4. FYs 2009 through 2010 Macon P&DC FHP
                              Productivity by Day of the Week




                  Chart 5. FYs 2009 through 2010 Columbus CSMPC FHP
                            Productivity by Day of the Week




                                                18
Columbus, GA Customer Service Mail Processing Center                         NO-AR-11-005
 Originating Mail Consolidation



                            Chart 6. FY 2010 Macon P&DC Service Scores
                                         By Day of the Week




Cost Savings

Cost savings from the consolidation result primarily from a reduction in workhours,17
offset by one-time costs associated with employee and equipment relocation. We
reviewed the Postal Service’s cost saving calculation for accuracy and completeness
and generally agreed with their calculations. See Table 5 for a breakdown of cost
savings.




17
     This is based on a 20,089 craft workhour reduction.


                                                           19
Columbus, GA Customer Service Mail Processing Center                                              NO-AR-11-005
 Originating Mail Consolidation




                                         Table 5. Cost Savings

                                       Postal Service
                                                                          OIG Calculations
                                        Calculations
                                  First Year      Annual              First Year        Annual
                                   Savings       Savings               Savings          Savings
           Mail
           Processing
                                     $847,483         $847,483         $850,37218         $850,372
           Craft
           Workhours
           Non-Mail
           Processing
                                             $0                $0                $0               $0
           Craft
           Workhours
           PCES19/EAS20
                                             $0                $0                $0               $0
           Savings
           Transportation
                                      106,728           106,728         387,92721          387,927
           Savings
           Maintenance
                                        20,266              20,266         20,266            20,266
           Savings
           One-Time
                                    (186,135)                           (45,839)22
           Costs
           Total Cost
                                     $788,342         $974,477        $1,212,726        $1,258,565
           Savings

AMP Process

AMP guidelines were followed although some steps were not completed within
established timeframes. According to Postal Service management, established
timeframes were not always met, because:

   The AMP study was completed during the holiday season.

   A leadership change occurred in the area responsible for reviewing and approving
    AMP study documents.

   Additional time was needed to research, review, and approve service standards and
    transportation logistics.


18
   The AMP proposal slightly underestimated craft workhours savings by 69 hours or $2,889. The AMP proposal did
not capture savings in flat volume transferring from a mechanized to semi-automated flat environment.
19
   Postal Career Executive Service (PCES) — A staffing category that develops and maintains a group of employees
for key management positions. There are two levels in PCES: Level I includes district, area, and Headquarters
executives, and Level II consists of USPS officers, including vice presidents.
20
   executive and administrative schedule (EAS) — A salary structure that applies to most managerial and
administrative USPS employees.
21
   Data obtained from the Transportation Contract Support System for October 12, 2009, and July 12, 2010.
22
   The difference in the one-time costs was due to only one employee relocating instead of the expected 15.


                                                       20
Columbus, GA Customer Service Mail Processing Center                                                   NO-AR-11-005
 Originating Mail Consolidation


Not meeting these timeframes did not adversely affect implementation of the
consolidation. See Table 6 for the timeline of events.

                                  Table 6. Timeline of Events

                                                                                           Conducted
                                  Event                                    Date            Within AMP
                                                                                           Timeframe
         Area vice president (AVP) notified district or
         district notified AVP of intent to conduct                     10/2/2009               N/A
         study.
         Stakeholders notified of the intent to
                                                                        10/8/2009               Yes
         conduct study.
         District manager completed feasibility study
         and submitted to AVP within 2 months of                       12/28/2009               No23
         notification to conduct study.
         District held public input meeting within
                                                                        1/13/2010               Yes
         45 days after study submitted to AVP.
         District summarized information from public
         meeting and written comments within                             3/9/2010               No24
         15 days after meeting.
         Area and headquarters reviewed the
         feasibility study within 60 days from the                       1/8/2010               Yes
         time the study is submitted to the AVP.
         AVP approved study after finalized
         worksheets were approved by area and
                                                                         4/8/2010               Yes
         headquarters and submitted study to senior
         vice president (SVP), Operations
         SVP approved study within 2 weeks of
                                                                        5/19/2010               No25
         receipt from AVP.




23
   The feasibility study was completed and submitted to the AVP later than the required 2 month time frame, identified
in the AMP guidelines.
24
   The district summarized the information from the public meeting later than the required 15 days.
25
   The SVP approved the study later than the required 2 weeks specified in their guidelines.


                                                         21
Columbus, GA Customer Service Mail Processing Center                           NO-AR-11-005
 Originating Mail Consolidation


Fort Benning Army Base

Continued buildup of troops at the Fort Benning Army Base will not impact the Macon
P&DC’s mail processing operations. We found that:

   Supported population at Fort Benning includes about 120,000 soldiers, family
    members, retirees, civilians, and contractors who work on the installation.

   As part of the Defense Base Closure and Realignment Commission, approximately
    1,000 additional soldiers will relocate to Fort Benning, increasing the population to
    about 121,000.

   Military officials indicated they have not had any complaints of delayed mail since
    the AMP consolidation.

Congressional Request Results

The previous discussion provides the details of our findings with regards to the
consolidation and the congressional concerns. Below is a summary of our conclusions
for each of the congressional concerns raised:

   AMP guidelines were followed.

   A business case existed for consolidating the Columbus CSMPC originating mail
    processing to the Macon P&DC.

   AMP will yield approximately $1.3 million in savings a year.

   Service levels have been maintained.

   Transportation savings were understated.

   The number of supervisors will decrease relative to the decrease in the number of
    craft employees after the freeze on hiring is lifted.

   The increase in mail from the Fort Benning Army Base will not impact the Macon
    P&DC’s mail processing operations.

   Columbus postmark is still available and customers have been notified.

   Retail customer service has been maintained at the Columbus CSMPC.




                                                22
